APPENDIX
Appendix A. Judgement

A-l

Appendix B Opinion and Order,

A* 2

Appendix C Motion Under 28 U.S. Code 2255

A-8

Appendix D United States Code

A-14

V*-

Case 3:17-cr-00435-JO

Document 269

Filed 03/29/21

Page 1 of 1

I

i
IN THE UNITED STATES DISTRICT COURT

i
I

FOR THE DISTRICT OF OREGON

1

UNITED STATES OF AMERICA,
PlaintifF,
v.
JODY TREMAYNE WAFER,
Defendant

)
)
)
)
)
)
)
)
)
)

3

No. 3:17-cr-00435-JO

j
JUDGMENT

;

Based on the record, Defendant’s Motion to Vacate, Set Aside or Correct his Sentence

!

under 28 U.S.C. § 2255, ECF No. 258, is DENIED. The Court declines to issue a certificate of
appealability because Defendant has not “made a substantial showing of the denial of a

!

constitutional right.” 28 U.S.C. § 2253(c)(2).
IT IS SO ORDERED.
DATED March 29,2021.

|
"’N

Rob; KMnes
Un» T>tates District Judge

1 - JUDGMENT

A'l

M|

Case 3:17-cr-00435-JO

Document 267

Filed 03/26/21

Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON

UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)
)

Plaintiff,
v.
JODY TREMAYNE WAFER,
Defendant

No. 3:17-cr-00435-JO

OPINION AND ORDER

JONES, J.
Defendant Jody Tremayne Wafer pleaded guilty to conspiracy to distribute marijuana and
to use of a firearm in furtherance of a drug trafficking crime. This court sentenced Defendant to
no time in prison on the marijuana count and to 84 months in prison on the firearm count.
Defendant, representing himself, now moves to vacate his conviction under 28 U.S.C. §
2255, claiming that he received ineffective assistance of counsel. ECF No. 258. For the
following reasons, I deny Defendant’s Motion.
LEGAL STANDARDS
1. Motions Under 28 U.S.C. § 2255
Under 28 U.S.C. § 2255, a federal prisoner may file a motion in the court that imposed
the sentence to vacate, set aside, or correct the sentence because;
[T]he sentence was imposed in violation of the Constitution or laws of the United
States, or that the court was without jurisdiction to impose such sentence, or that
the sentence was in excess of the maximum authorized by law, or is otherwise
subject to collateral attack....
1

- OPINION AND ORDER

.."I

Case 3:l7-cr-00435-JO

Document 267

Filed 03/26/21

Page 2 of 6

28 U.S.C. § 2255(a). To prevail on a motion under § 2255, a defendant must show that an error
of constitutional magnitude occurred and that the error had a substantial and injurious effect or
influence on the guilty plea or the jury’s verdict. Brecht v. Abrahamson, 507 U.S. 619, 637
(1993).
II. Ineffective Assistance of Counsel
To prevail on a claim for ineffective assistance of counsel, the defendant must show both
that his attorney’s performance was unreasonable under prevailing professional standards and
that the deficient performance prejudiced his defense. See Strickland v. Washington, 466 U.S.
668,694-95 (1984). If the defendant fails to show either incompetent performance or prejudice,
the court “must dismiss the claim.” United States v. Sanchez-Cervantes, 282 F.3d 664,672 (9th
Cir. 2002). “Review of counsel’s performance is highly deferential.” United States v. FerreiraAlameda, 815 F.2d 1251,1253 (9th Cir. 1986). To establish prejudice, the defendant must show
“a reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different” Strickland, 466 U.S. at 694.
DISCUSSION
Defendant contends that his conviction should be vacated because Congress’s decision to
“proscrib[e] marijuana as a controlled dangerous substance in 1970 was political, arbitrary,
unreasonable and unconstitutional contravening Amendments TV and V of the United States
Constitution.” Def.’s Mem. 3, ECF No. 259. Defendant further argues that his lawyer was
ineffective for failing to challenge marijuana’s legal status. Def.’s Mot. 4, ECF No. 258.
I. Strict Scrutiny Review Does Not Apply
Defendant argues that this court should use the strict scruti ny standard of review to
evaluate his challenge to the federal prohibition of marijuana. Strict scrutiny review applies to

2

- OPINION AND ORDER

-3

Case 3:17-cr-00435-JO

Document 267

Filed 03/26/21

Page 3 of 6

the denial of a fundamental right See Washington v. Glucksberg, 521 U.S. 702,721 (1997).
The Due Process Clause “specially protects those fundamental rights and liberties which are,
objectively, deeply rooted in this Nation's history and tradition, and implicit in the concept of
ordered liberty, such that neither liberty nor justice would exist if they were sacrifices.” Id.
(internal quotation marks and citations omitted). “[T]he right must be carefully stated and
narrowly identified before the ensuing analysis can proceed.” Raich v. Gonzales, 500 F.3d 850,
864 (9th Cir. 2007) (Raich II); Glucksberg, 521 U.S. at 721 (requiring “a ‘careful description’ of
the asserted fundamental liberty interest”).
Here, Defendant contends he has been deprived of his fundamental right to be free from
physical restraint. See Chapman v. United States, 500 U.S. 453,465 (1991) (recognizing
fundamental right to liberty “in the sense that the government may not punish” a person “unless
and until it proves [the person’s] guilt beyond a reasonable doubt at a criminal trial conducted in
accordance with the relevant constitutional guarantees”). However, Defendant’s description of
the fundamental right at stake is too broad. For example, in Raich II, the Ninth Circuit addressed
the claim of a plaintiff who sought to use marijuana medicinally, asserting a fundamental right to
make medical decisions needed to preserve her bodily integrity, avoid intolerable physical pain,
and preserve her life. Id. The court rejected the plaintiffs “carefully crafted” asserted interest
because it did not “narrowly and accurately reflect the right that she seeks to vindicate.
Conspicuously missing from [the plaintiffs] asserted fundamental right is its centerpiece: that
she seeks the right to use marijuana to preserve bodily integrity, avoid pain, and preserve her
life.” Id. (original italics) (footnote omitted). Similarly, here Defendant’s assertion of the
fundamental right to liberty is based on his argument that die federal prohibition of marijuana is
“unreasonable and unconstitutional.” Def.’s Reply 2, ECF No. 266. In effect, Defendant asks

3 - OPINION AND ORDER

1

Case 3:17-cr-00435-JO

Document 267

Filed 03/26/21

Page 4 of 6

this court “to determine whether he has a fundamental right to use, sell, or possess marijuana
without facing incarceration.” United States v. Green, 14-cr-6038 (EAW), 2016 WL 11483508,
at *3 (W.D.N.Y. June 27,2016) (addressing similar claim). As Defendant acknowledges,
“marijuana is not a fundamental right.” Def.’s Reply 2. Courts addressing challenges to the
federal prohibition of marijuana have consistently rejected Defendant’s characterization of the
fundamental right at stake. United States v. Kiffer, 477 F.2d 349, 352-53 (2d Cir. 1973); United
States v. Oakland Cannabis Buyers' Co-op, 259 F. App’x 936, 938 (9th Cir. 2007) (rational basis
review applies to the defendants’ challenge to federal prohibition of medical marijuana).
In his reply brief at 2-3, Defendant quotes the following statement from the Kiffer
opinion: “in the absence of compelling justification, the police power does not extend so far as
to permit the Government to protect an individual against himself and that the concern for public
health and safety is relevant only insofar as the actions of one individual may threaten die well­
being of others.” 477 F.2d at 354. But the Kiffer opinion prefaces the quoted statement with the
phrase, “An argument might perhaps be made,” so die quoted statement is not the court’s
holding. Id. The Kiffer opinion distinguished between die federal prohibition on personal
possession and use of marijuana, which was not at issue, versus the prohibition on die
commercial distribution of marijuana to others, which was at issue. 477 F.2d at 355. Similarly,
here the issue is the validity of the federal prohibition of possession of marijuana with intent to
distribute, not the prohibition on the personal use or possession of marijuana.
n. Defendant’s Challenge Fails Under Rational Basis Review
Because there is no fundamental right to distribute marijuana, this court applies the
rational basis standard of review, which requires that courts uphold a statutory classification “‘if
there is any reasonably conceivable state of facts that could provide a rational basis for the

4 -OPINION AND ORDER

Case 3:17-cr-00435-JO

Document 267

Filed 03/26/21

Page 5 of 6

classification.’” Oakland Cannabis Buyers’ Co-op, 259 F. App’x at 938 (quoting FCC v. Beach
Commc ’ns, Inc., 508 U.S. 312, 320 (1993)). Under rational basis review, the Ninth Circuit has
rejected due process challenges to the federal prohibition of marijuana. United States v. Christie,
825 F.3d 1048,1066 (9th Cir. 2016) (rejecting Fifth Amendment due process challenge) (citing
United States v. Miroyan, 577 F.2d489,495 (9th Cir. 1978) (rejecting challenge to federal
classification of marijuana), partially overruled on other grounds as recognized by United States
v. Pineda-Moreno, 688 F.3d 1087,1090-91 (9th Cir. 2012)); Sacramento Nonprofit Collective v.
Holder, 552 F. App’x 680,683 (9th Cir. 2014); see also Kiffer, 477 F.2d at 355 (rejecting
argument that “Congress acted irrationally in prohibiting the commercial distribution of
marihuana”). In Christie, the Ninth Circuit explained that “while it may be true that marijuana’s
legal status continues to evolve, as does its standing in the medical and scientific communities,
those developments do not come close to demonstrating that changes since 1978 have left
Miroyan’s ‘central holding obsolete.’” Id. (quoting Planned Parenthood v. Casey, 505 U.S. 833,
860 (1992)); see also James v. City of Costa Mesa, 700 F.3d 394,405 (9th Cir. 2012) (“Local
decriminalization notwithstanding, the unambiguous federal prohibitions on medical marijuana.
.. continue to apply”) (original italics)). Defendant’s due process challenge to the federal
prohibition of marijuana therefore fails. Similarly, to the extent Defendant relies on the right to
equal protection, that challenge also fails. See Chapman, 500 U.S. at 465 (“an argument based
on equal protection essentially duplicates an argument based on due process”).
Because a challenge to the federal prohibition of marijuana distribution would have been
futile, Defendant cannot show that he was prejudiced by his counsel’s failure to raise die issue.
Were this court to hold otherwise, defense counsel would be required to raise every conceivable
issue despite controlling precedent to the contrary. Gov’t Resp. 6, ECF No. 264.

5

- OPINION AND ORDER

Case 3:17-cr-00435-JO

Document 267

Filed 03/26/21

Page 6 of 6

Defendant argues that he was deprived of a property interest without due process.
Because marijuana is contraband perse under federal law, Defendant has no cognizable property
interest at stake. See Gonzales v. Raich, 545 U.S. 1,27 (2005) (“The {Controlled Substances
Act] designates marijuana as contraband for any purpose.”); United States v. Jeffers, 342 U.S.
48,54 (1951) (the defendant not entitled to return of illegally seized contraband).
Defendant also argues that he is a political prisoner and that he cannot be convicted of a
victimless crime. These arguments have no basis in law or fact.
Here, “the motion and the files and records of the case conclusively show that the
prisoner is entitled to no relief.” 28 U.S.C. § 2255(b). I therefore deny an evidentiary hearing.
CONCLUSION
Defendant’s Motion to Vacate, Set Aside or Correct his Sentence under 28 U.S.C. §
2255, ECF No. 258, is DENIED.
IT IS SO ORDERED.
DATED March 26,2021.
/s/ Robert E. Jones
Robert E. Jones
United States District Judge

6 - OPINION AND ORDER

Case 3:17-cr-00435-JO Document 258 Filed 12/15/20 Page 1 of 6
AOa43<Rev*09/17)

MOTION UNDER 28 U.S.C. § 2255 TO VACATE, SET ASIDE, OR CORRECT
SENTENCE BY A PERSON IN FEDERAL CUSTODY
District

United States District Court

of Oregon
Docket or Case No.:
3:17-CR-00435-J04

Name (under which you were convicted):

JODY TREMAYNE WAFER

Place of Confinement:

Prisoner No.:

FC1 YAZOO CITY MEDIUM P.O. BOX 5000 YAZOO CITY, MS 39194

80606-065

UNITED STATES OF AMERICA

Movant (include name under which convicted)

V-

JODY TREMAYNE WAFER

MOTION
I.
!

(a) Name and location of court which entered the judgment of conviction you are challenging:
Mark O. Hatfield United States Courthouse
Room 1007
1000 Southwest Third Avenue
Portland, Oregon 97204-2946
(b) Criminal docket or case number (if you know): 3:17-CR-0Q435-JQ-I_______________

2.
!

(a)Dateofthejudgmentofconviction(ifyouknow): 1/8/2020
(b) Date of sentencing: 1/8/2020_______________________

3.
4.

Length of sentence: Count 1: No time; Count 9: 7 years, 3vears supervised release.
Nature of crime (all counts):
COUNT 1: 21 U.S.C. §846 CONSPIRACY TO MANUFACTURE,POSSESS WITH INTENT TO
DISTRIBUTE AND DISTRIBUTE MARIJUANA AND MAINTAIN DRUG INVOLVED PREMISES
COUNT 9: 18 U.S.C. §§924(c)(IXA)(i) and (ii) USING AND CARRYING A FIREARM DURING AND IN
RELATION TO A DRUG TRAFFICKING CRIME

5.

(a) What was your plea? (Check one)
(1) Not guilty Q

(2) Guilty [ «^|

(3) Nolo contendere (no contest) |

I

6.

(b) If you entered a guilty plea to one count or indictment, and a not guilty plea to another count or indictment,
what did you plead guilty to and what did you plead not guilty to?

6.

If you went to trial, what kind of trial did you have? (Check one)

7.

Did you testify at a pretrial hearing, trial, or post-trial hearing?

:>

Jurvl

Y^n

I

Judge only I

Nopg

|

Case 3:17-cr-00435-JO

Document 258

Filed 12/15/20

Page 2 of 6

AO 243 (Rev. 09/17)

8.

Did you appeal from the judgment of conviction?

9.

If you did appeal, answer the following:

Yesn

No0

(a) Name of court _______________________ _
(b) Docket or case number (if you know): _ _ _
(c) Result:___________________________
(d) Date of result (if you know):______________
(e) Citation to the case (if you know): __________
(f) Grounds raised:

!•
I1

(g) Did you file a petition for certiorari in the United States Supreme Court?

Yes □

Iwl
No^j

If “Yes,” answer the following:
(1) Docket or case number (if you know):______________________
(2) Result:_____________________________________________
(3) Date of result (if you know): __
(4) Citation to the case (if you know):
(5) Grounds raised:

10.

Other than the direct appeals listed above, have you previously filed any other motions, petitions, or applications,
concerning this judgment of conviction in any court?
Yes

□ No0

11.

If your answer to Question 10 was “Yes,” give the following information:
(a) (1) Name of court:
(2) Docket or case number (if you know):
(3) Date of filing (if you know):

!■

psgC"9-<J3
?

Case 3:17-cr-00435-JO

Document 258

Filed 12/15/20

Page 3 of 6

AO 243 (Rev. 09/17)

12.

For this motion, state every ground on which you claim that you are being held in violation of the Constitution,
laws, or treaties of the United States. Attach additional pages if you have more than four grounds. State the facts
supporting each ground. Any legal arguments must be submitted in a separate memorandum.
----- .Mr. Wafer is in custody in violation of Amendments IV and V of the Constitution of the United States.

GROUND ONE:

therefore without due process of law.

(a) Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
1. There is no constitutional amendment proscribing marijuana
2. The historical definition of a crime requires a victim.
3. Original meaning of liberty, freedom from physical restraint, IS a constitutional right
4. Marijuana is NOT a constitutional right It is property. To acquire property is a constitutional right
5. The operation and effect of federal prosecution in the enforcement of 21 U.S.C. § 846, was the seizure of Mr.
Wafer' s person and deprivation of his constitutional right of liberty by foe bounds of prison.
6. Marijuana does not meet all three criteria to be a controlled substance. It is safe to use without medical
supervision.
7. A reasonable regulated interstate commerce of this property, marijuana, does not present a substantial threat to
the rights of others, to public safety or health, requiring the use of federal police power.
8. Mr. Wafer plead guilty, was convicted, deprived of his liberty, without compelling government reasons for a
victimless crime, a political crime.
9. Ground One is not about selective, arbitrary enforcement of the marijuana laws,violating due process of law.
10. Political police power, Mr. Wafer is a political prisoner.

(b) Direct Appeal of Ground One:
(1) If you appealed from foe judgment of conviction, did you raise this issue?
Yes □
No[§J

i

(2) If you did not raise this issue in your direct appeal, explain why:

l

I

(c) Post-Conviction Proceedings:
(1) Did you raise this issue in any post-conviction motion, petition, or application?
YeslTl
NO0
(2) If you answer to Question (cXl) is “Yes,” state:
Type of motion or petition:
Name and location of foe court where foe motion or oetition was filed:

t

Docket or case number (if you know):
Date of the court’s decision:
Result (attach a copy of foe court’s opinion or order, if available):
!

(3) Did you receive a hearing on your motion, petition, or application?
YesQ
N0rg|
RsgeSof 13

Case 3:17-cr-00435-JO

Document 258

Filed 12/15/20

Page 4 of 6

AO 243 (Rev. 09/17)

Type of motion or petition:
Name and location of the court where the motion or petition was filed:
Docket or case number (if you know):
Date of the court’s decision:
Result (attach a copy of the court’s opinion or order, if available):

t

(3) Did you receive a hearing on your motion, petition, or application?
Yes Q
No lXl
(4) Did you appeal from the denial of your motion, petition, or application?
No0
(5) If your answer to Question (c)(4) is “Yes,” did you raise the issue in the appeal?
YesQ
Nog]
(6) If your answer to Question (cX4) is “Yes,” state:
Name and location of the court where the appeal was filed:
Docket or case number (if you know):
Date of the court’s decision:
Result (attach a copy of the court’s opinion or order, if available):

5
I

I

(7) If your answer to Question (cX4) or Question (cX5) is “No,” explain why you did not appeal or raise this
issue:

!

1

I

13.

Is there any ground in this motion that you have not previously presented in some federal court? If so, which
ground or grounds have not been presented, and state your reasons for not presenting than:
Ground One has not been raised because of ' ineffective assistance of counsel" that was prejudicial. Counsel
believes criminal laws are not an Article III case or controversy ripe for adjudication by this court under strict
scrutiny standard of review. Counsel believes the marijuana laws are constitutional because marijuana is not a
fundamental right. Counsel beats laws that authorize the use of police power as a political question. Counsel
violated solemn oath to uphold Amend IV limiting police power to be reasonable not rational. Counsel did not
protect the right of Mr. Wafer to be secure against unreasonable deprivation of his constitutional right of liberty,
freedom from physical restraint, and his right of property secured by Amendments IV and V.

I
!

X-//

Page 10 of 13

Case 3:17-cr-00435-JO

Document 258

Filed 12/15/20

Page 5 of 6

AO 243 (Rev. 09/17)

14.

Do you have any motion, petition, or appeal now Deriding (filed and not decided yet) in any court for the
you are challenging?
Yesj {
No |>C|
If “Yes,” state the name and location of the court, the docket or case number, the type of proceeding, and the
issues raised.

15.

Give the name and address, if known, of each attorney who represented you in the following stages of the
judgment you are challenging:
(a) At the preliminary hearing:
(b) At thcairaignment and plea:

Bocrv/.VJ.
(c) At the trial:

^

(d) At sentencing:
Barry W Engle PC 12901 SE 97th Avenue Suite 395 Clackamas, OR 97015

(e) On appeal:
(f) In any post-conviction proceeding:
(g) On appeal from any ruling against you in a post-conviction proceeding:

16.

Were you sentenced on more than osc court of an indictment, or on more than one indictment, in the: same court
YesQ
NoQ
and at the same time?

17.

Do you have any future sentence to serve after you complete the sentence for the judgment that you are
challenging?
(a) If so, give name and location of court that imposed the other sentence you will serve in the future:

Y«0

N« [XI

(fa) Give the date the other sentence was imposed:
(c) Give the length of the other sentence:
sentence to be served in the future?

»-□

No

A-&

Page itJ of 13

Case 3:17-cr-00435-JO

Document 258

Filed 12/15/20

Page 6 of 6

AO 243 (Rev. 09/17)

Therefore, movant asks that the Court erant the following relief:
To declare liberty is freedom from physical restraint and the U.S. Congress proscribing marijuana as a controlled
substance was arbitrary and unreasonable regulation of property, depriving Mr. Wafer's liberty without compelling reasons,
without due nmc*»ss of tew vintetino Amends. IV. V of the IJ.S. Constitution thus venetino both convictions,

or any other relief to which movant may be entitled.
f

Signature of Attorney (if any)

I declare (or certify, verify, or state) under penalty of perjury that the foregoing is true and correct and that this Motion
under 28 U.S.C. § 2255 was placed in the prison mailing system on
_________________
(month, date, year)

Executed (signed)on tVf.. ,~f .7^9h

(date)

O
sid

iture

L

Eovant

If the person signing is not movant, state relationship to movant and explain why movant is not signing this motion.

!

Page 13 of 13

/

UNITED STATES CODE

18 U.S. Code § 924 - Penalties
(c)(l)(A )Except to the extent that a greater minimum sentence is otherwise provided by this subsection
or by any other provision of law, any person who, during and in relation to any crime of violence or Drug
trafficking crime ... for which the person may be prosecuted in a court of the United States uses or
carries a firearm or who, in furtherance of any such crime, possesses a firearm, in addition to the
punishment provided for such ... drug trafficking crime
(i) be sentenced to a term of imprisonment of not less than 5 years;
(ii) if the firearm is brandished, be sentenced to a term of imprisonment of not less than 7 years; and
21 U.S. Code SUBCHAPTER l-CONTROL AND ENFORCEMENT
21 U.S.C. § 846 Conspiracy to Distribute a Schedule I Controlled Substance
Any person who attempts or conspires to commit any offense defined in this subchapter shall be subject
to the same penalties as those prescribed for the offense, the commission of which was the object of
the attempt or conspiracy.
28 U.S. Code § 2243
A court, justice or judge entertaining an application for a writ of habeas corpus shall forthwith
award the writ or issue an order directing the respondent to show cause why the writ should not be
granted, unless it appears from the application that the applicant or person detained is not entitled
thereto.
The writ, or order to show cause shall be directed to the person having custody of the person
detained. It shall be returned within three days unless for good cause additional time, not exceeding
twenty days, is allowed.
?•

The person to whom the writ or order is directed shall make a return certifying the true cause of
the detention.
When the writ or order is returned a day shall be set for hearing, not more than five days after
the return unless for good cause additional time is allowed.
Unless the application for the writ and the return present only issues of law the person to whom
the writ is directed shall be required to produce at the hearing the body of the person detained.
The applicant or the person detained may, under oath, deny any of the facts set forth in the
return or allege any other material facts.
The return and all suggestions made against it may be amended, by leave of court, before or
after being filed.
The court shall summarily hear and determine the facts, and dispose of the matter as law and
justice required.

-APPEN0IX-B
A-14

Jf'

IN THE
SUPREME COURT OF THE UNITED STATES
IN RE CHAD ANTHONY RAY
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION
FOR AN EXTRAORDINARY WRIT OF HABEAS CORPUS contains 1559 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
CERTIFICATE OF SERVICE
S.C.O.T.U.S. 29 (4)(a)
I certify that the following attached documents for
PETITION FOR AN EXTRAORDINARY WRIT OF HABEAS CORPUS
were sent USPS 1st class mail, postage paid to:
The Warden.
FCI Yazoo City Medium
2255 Haley Barbour Parkway
Yazoo City, MS 39194

Solicitor General of the United States,
Room 5616, Department of Justice,
950 Pennsylvania Ave., N. W.,
Washington, DC 20530-001
(202) 514-2203
On the 27th of Augusta 2021.

RECEIVED
SEP - 1 2021
SUPrImeFCOURtLF.R0K

/s/ Jody Tremayne Wafer, Pro Se
BOP #80606-065
FCI Yazoo City Medium
_P.O. BOX 5000
Yazoo City, MS 39194

i
i

(

